<html>
<title> - WOMEN UNDER ISIS RULE: FROM BRUTALITY TO RECRUITMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                        WOMEN UNDER ISIS RULE: 
                     FROM BRUTALITY TO RECRUITMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 29 2015

                               __________

                           Serial No. 114-85

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                                 
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
95-695 PDF                    WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                               
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Sasha Havlicek, chief executive officer, Institute for 
  Strategic Dialogue.............................................     4
Mr. Edward Watts, director and producer, Escaping ISIS...........    26
Kathleen Kuehnast, Ph.D., director, Gender and Peacebuilding, 
  Center for Governance, Law and Society, United States Institute 
  of Peace.......................................................    30
Ariel Ahram, Ph.D., assistant professor, Virginia Tech School of 
  Public and International Affairs...............................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Sasha Havlicek: Prepared statement...........................     8
Mr. Edward Watts: Prepared statement.............................    28
Kathleen Kuehnast, Ph.D.: Prepared statement.....................    33
Ariel Ahram, Ph.D.: Prepared statement...........................    41

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    72
Written responses from Ms. Sasha Havlicek to questions submitted 
  for the record by the Honorable Edward R. Royce, a 
  Representative in Congress from the State of California, and 
  chairman, Committee on Foreign Affairs.........................    73
Written responses from Ms. Sasha Havlicek and Ariel Ahram, Ph.D. 
  to questions submitted for the record by the Honorable Ileana 
  Ros-Lehtinen...................................................    75


                        WOMEN UNDER ISIS RULE: 
                     FROM BRUTALITY TO RECRUITMENT

                              ----------                              


                        WEDNESDAY, JULY 29, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    I am pleased to announce that this will be the first of 
several hearings on the status of women around the world. The 
committee has worked on a bipartisan basis to promote women in 
our development efforts through a number of bills that we 
passed out of this committee, and I believe these hearings will 
allow us to build on that good work.
    Today, we look at the brutalization and oppression of women 
living under ISIS. This violence against women is almost 
without parallel, from widespread rape and trafficking to 
forced marriage and murder. Female captives, including 
thousands of Yazidi women and girls, are sold as slaves in 
modern day slave markets. One U.N. official described meeting 
with a woman in ISIS-occupied territory who was forced to marry 
15 different men in 1 year. Some of these so-called 
``marriages'' lasted only 3 days.
    That is life under ISIS for these women today. As one 
witness will testify, much of this seemingly crazed and 
indiscriminate violence against women is in fact a sinister and 
quite calculated strategy that goes to the heart of ISIS's 
survival. By forcing local women to marry into ISIS, the group 
expands its demographic base while reducing the population of 
those diverse communities it seeks to eradicate and to replace.
    Simply put, ISIS needs women--needs to control them--to 
establish its ``caliphate'' and give rise to the next 
generation of ISIS. That is why ISIS is investing heavily in 
recruiting foreign women to join its ranks. And with each girl 
who becomes brainwashed, ISIS has a new poster child for its 
jihadi girl-power propaganda.
    Sometimes it can seem like all we do is look at the worst 
of humanity. So I appreciate the efforts of Mr. Watts, one of 
our witnesses with us today. I appreciate his efforts to 
elevate the voices of those courageous individuals who are 
working to counter ISIS, often at great personal risk.
    For all the horrible atrocities being committed in this 
region, there are those incredible stories of strength and 
integrity, many of them from women and girls with the most to 
lose: From the Kurdish woman on the front lines against ISIS, 
who declares that she fights ``to take back the role of women 
in society.''
    We appreciate the fact that so many of these Kurdish women, 
30 percent of those battalions that you see, Kurdish 
battalions, are all-women battalions, fighting on the front 
lines. By the way, only with small arms and rifles, because 
they can't get access. We have not given them or sold them to 
the Kurds, the long-range artillery or mortars or anti-tank 
weapons that they say they need. But they stand and they fight 
as they say to protect all women in society and they protect 
others besides the Kurdish behind their lines.
    And we have the female responders pulling victims from the 
rubble in Syria. These female units go out and take on that 
role. And we have the captured Yazidi girl described by Mr. 
Watts, who walked right past her would-be rescuers when she 
realized ISIS had staged an ambush for those rescuers, thus 
saving their lives at the expense of her own life.
    These stories inspire us to act. Credible voices need to be 
heard. They need to hear the fact that ISIS land is not a 
utopia.
    We must prioritize the physical and psychological welfare 
of those women and girls who have escaped from ISIS, many of 
whom have been subjected to unbelievable trauma, and we need to 
support leaders in the region who are confronting the stigma of 
sexual violence head on and calling on families to welcome back 
male and female survivors with open arms.
    Although we focused today on ISIS, we know full well that 
Assad's brutality against Syrians includes not only barrel 
bombs and starvation, but also widespread sexual violence. 
Ranking Member Engel and I have pressed for the consideration 
of no-fly or safe zones in the region, and we are pleased to 
hear of Turkey's recently increased cooperation with the United 
States on this issue.
    I had lunch with the Turkish Ambassador last week to 
discuss this issue. I think this is a very important step. I 
also just for a moment wanted to thank Mr. Engel for his long-
time support over many years of trying to get a focus on what 
was likely to be the blowback in Syria as a consequence of the 
violence there, and also his efforts where he worked with me 
and others on this committee when ISIS first came out of the 
desert and called for air strikes.
    We went a year without doing that, and we watched ISIS take 
city after city after city, across Syria and then across Iraq, 
and now have some 5 million souls under the control of ISIS. I 
think our air power should have been used back then in order to 
degrade and slow or defeat them when they were targets out on 
the open desert.
    But I now turn to Ranking Member Engel, whose passionate 
leadership on the crisis in Iraq and Syria has been of great 
benefit I think. And thank you, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for convening 
this hearing and, as always, thank you for your leadership on 
this issue, and all the other issues that this committee 
confronts.
    To our witnesses, welcome to the Foreign Affairs Committee. 
Thank you for your time, and I look forward to your testimony.
    None of the issues that this committee deals with are 
simple, and the fight against ISIS is certainly no exception. 
Just this week we see two of our partners, Turkish and Kurdish 
fighters, battling each other. This situation is a mess, and 
there is no other way to put it. That doesn't mean we should 
look the other way. On the contrary, we need to dig deep, look 
at all of the aspects of this crisis, and keep working toward a 
viable strategy.
    Today, we are addressing a particular concern of mine, the 
way women have been victimized in ISIS's brutal rampage. In 
ISIS-controlled areas, women have suffered horrendous violence, 
they have been separated from their families, and they have 
been bought, sold, and gifted as if they were property.
    Nearly a year ago, ISIS began its deadly offensive on the 
Yazidi population in the Sinjar area of northern Iraq. As many 
as 50,000 Yazidis were forced to flee. Five thousand Yazidi men 
were massacred, and between 5,000 and 7,000 women and girls 
became ISIS slaves. We have heard the horrifying stories from 
survivors, accounts of systematic rape, torture, forced 
marriage, and other abuses. Girls as young as 12 have been 
raped, often multiple times and by different fighters.
    Sexual violence has a long, dark history as a tool of war, 
yet it seems that this type of violence is central to ISIS 
ideology. ISIS terrorists are using rape in an effort to wipe 
away cultural diversity, religious minorities, and killing LGBT 
persons in order to realize their twisted vision of a 
homogeneous caliphate. Sounds a lot like the Nazis to me.
    It is also troubling that more than 500 women from Western 
countries have chosen to join ISIS. Lured by online 
glorification of life in Daesh, women from the UK, France, 
Sweden, and other countries have been encouraged to abandon 
their communities and join ISIS. It really perplexes me. These 
women recruited to ISIS are then funneled into domestic roles, 
recruitment jobs, or all-women patrol brigades to enforce the 
group's perverted world view.
    So today I am hoping our witnesses can shed more light on 
this problem and share their ideas on how to meet this 
challenge. What motivates the women who join the ranks of ISIS? 
What motivates anyone who joins the ranks of ISIS? An 
organization with such a brutal record of violence against 
women and girls, why would women want to join them? How do we 
disrupt these recruitment and radicalization efforts? And how 
can we assist women to be part of a solution?
    We know that with the right tools and opportunities women 
can be tremendous agents of change in preventing violent 
extremism. How can we adapt our policies, integrating women to 
address some of the tactics ISIS uses to recruit and 
radicalize?
    So I look forward to the testimony, to learning more about 
the specific challenges women face in confronting ISIS, and how 
we can best address the recruitment of women who join this 
heinous organization in Iraq and Syria.
    And I want to add to what the chairman said. Three years 
ago, I put in a bill which would have authorized the aiding and 
equipping of the Free Syria Army. And I said this 3 years ago, 
and I say it now, I can't help but thinking if we had been 
there and had done it when it should have been done, might 
things have been different now in Syria? It is the Syrian 
people who are bearing the brunt of all of the atrocities that 
are happening, and I think the United States needs to be more 
than just a passive bystander.
    So I thank all of our witnesses, and I look forward to your 
testimony.
    Thank you.
    Chairman Royce. Thank you, Mr. Engel.
    We are joined this morning by Ms. Sasha Havlicek. She is 
co-founder and CEO at the Institute for Strategic Dialogue 
where she works closely on counter extremism. She also co-
founded the Women and Extremism Initiative.
    We have Mr. Edward Watts. He is the director and producer 
of the film Escaping ISIS, which features firsthand accounts of 
women and girls who escaped from the terror group. Mr. Watts 
has also produced other critically acclaimed documentaries.
    We have Dr. Kathleen Kuehnast. She is director of the 
Gender and Peacebuilding Program at the U.S. Institute of 
Peace. Prior to this position, Dr. Kuehnast worked for 15 years 
in the international development field, including time with The 
World Bank.
    Dr. Ariel Ahram is associate professor of government and 
international affairs at Virginia Tech. He has written 
extensively on Syria and on Iraq and on ISIS.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. Members will have 5 calendar 
days to submit statements and questions and extraneous material 
for the record.
    Ms. Havlicek, if you could summarize your remarks. You will 
have 5 minutes each, and then we will go to the questions.

   STATEMENT OF MS. SASHA HAVLICEK, CHIEF EXECUTIVE OFFICER, 
                INSTITUTE FOR STRATEGIC DIALOGUE

    Ms. Havlicek. Thank you so much Mr. Chairman and 
distinguished members of the committee. I am very honored to 
have been invited here today and to be part of this extremely 
important discussion.
    My testimony is looking at the part of this challenge that 
you have already raised but that has been I think largely 
overlooked despite the extraordinary, unprecedented numbers of 
women that are flocking to join ISIS, that are leaving in 
particular Western countries and migrating to ISIS territory.
    Girls and women are--and I think this is difficult to 
comprehend--it feels counter intuitive--choosing of their own 
volition to join ISIS and subscribing, submitting voluntarily, 
to their ideology and to their rule. Women in extremist and 
terrorist organizations of course is not a new phenomenon, but 
the numbers here are indeed unprecedented. There are now 
thousands of women worldwide that have emigrated to ISIS 
territory, just from Western countries.
    The numbers that official estimates have suggested are well 
over 550. That number is taken from estimates at the beginning 
of 2015 and will have grown substantially by now. It is 
important to know that these are not foreign fighters. We tend 
to hear the media categorize them that way.
    For now, ISIS prohibits women from entering the 
battlefield, but that does not reflect the violent narratives 
that these women project in their social media lives--social 
media lives that we have been watching and analyzing over the 
last year, with a dataset, a unique dataset that has been 
tracking the developments of girls who have left Western 
countries and joined ISIS territory.
    So they are, despite the fact of not being combatants, 
proving to be as much agents of the group and its ideology as 
men: As propagandists and recruiters--as we have heard, they 
are prolific online--in particular Western girls--as part of 
peer-to-peer, very sophisticated marketing and recruitment 
strategies, goading men into action--that is also important to 
note: For a 15-year-old girl to be able to say, ``I have made 
it out here on my own. Why haven't you?''--but also as inciters 
to violence. And they are, again, goading people who cannot 
make it out to the battlefield to do as much damage as they can 
at home.
    They are also, as we have heard, enforcers of strict pre-
modern Islamic codes, penal codes, as part of the Al-Khansa 
all-female moral police brigade. And of course, as mothers of 
the next generation of jihadists, a role that is held in high 
esteem for ISIS, but also other jihadi groups.
    The violence of their online narratives is striking, and my 
written testimony is scattered with evidence of what they hope 
to be doing in the longer term. There is a wishful thinking 
there that they will be enabled to join the violence at some 
stage later.
    I think it is important we understand that this is not a 
sideshow. This is very much a core part of ISIS's strategy, and 
it is a part of the evolving terrorist landscape. It is a core 
tactic of jihadist groups, well before in fact ISIS emerged on 
the scene as the predominant group. And as such, they should 
matter to us more than they have to date among security and 
intelligence circles.
    Why are they important to ISIS? They are in part PR, in 
part troop morale, and in part, and most importantly perhaps, 
state-building strategy.
    Why are these girls going? For a long time, in looking at 
the challenge of radicalization, Western authorities and 
governments I think have been viewing this problem primarily 
through an equalities and socioeconomic lens. That has not 
borne out in our minds to be true by the data. Women in our 
dataset in particular defy easy categorization on socioeconomic 
lines. I think that is the case across the board, female and 
male recruitment.
    It is true that the grievances that are articulated in 
these women's accounts, not dissimilar to the male grievance 
narrative around identity, around the Muslim community globally 
being oppressed and there being no intervention to stop it 
happening, specifically, on the identity side of things, these 
women talk about the Western emancipation project as a ruse, as 
a means to sexualize women.
    ISIS, absurdly, is seen as freeing women from that 
``tyranny.'' And so this jihadi girl-power subculture has 
emerged. There is a meme that I have included in the testimony, 
which is a parody of a beauty industry set of advertisements. 
It is a woman fully covered, and it says, ``Covered girl, 
because you are worth it.'' And so rooted in Western culture, 
this propaganda is quite clearly coming out of it but rejecting 
it.
    But what has been largely ignored--and I think to our 
detriment--is what I see as the pull factors. The pull factors 
are a combination of an ideology that has been seeded over 
three decades--a Wahhabi Salafist ideology that is essentially 
the intellectual foundations for the movements that we see in 
play today, including, but not only, ISIS.
    And ``Brand Caliphate'' has done more for the 
diversification of recruitment around the world than anything 
else, including the recruitment of women. There has been a 
major spike in female recruitment, because ``Brand Caliphate'' 
is more than just about fighting. It is about building--
building a utopian vision of a pure Islamic state.
    And so we need to be looking at how ``Brand Caliphate'' is 
succeeding to reach around the world through a digital era 
hypercharging of the narratives, extremely successful 
propaganda recruitment machinery that has essentially gone 
unchallenged, a recruitment machinery that combines iconic 
memes, apps that have been developed, an extremely 
sophisticated, very evolved, decentralized communication 
strategy that would be the envy of many social media marketing 
companies and organizations at large.
    What to do? Just very, very briefly. We cannot beat the 
radicalization problem, the conveyor belt challenge, through 
drones or border measures. We need a proportional soft power 
strategy, a machinery that can close the gap we have allowed to 
emerge between their propaganda recruitment machinery on the 
one hand and our response, which has not been professionalized 
to date.
    The objective cannot simply be to reduce the number of 
recruits, female or otherwise. It must be to undermine the 
underlying ideology if we are going to have a long-term impact 
on this challenge. Credible counter narratives are absolutely 
key. In our minds, we need to be undermining, in the first 
place, ``Brand Caliphate.'' And those that can speak to the 
heresy, the inauthenticity, of that Brand are vital.
    We of course have been working with the largest global 
network of former extremists, survivors of extremism. Those 
voices, as we know, are particularly credible and important. We 
need more women in this space. We need to be growing those 
networks, so that we can incorporate women. Women, female-
focused counter narratives are to date entirely lacking in the 
counter extremism space.
    And so just as a last point, we need counter narratives and 
we need to be getting ahead of the curve with inoculation 
strategies, tools for those at the front line, whether teachers 
or social workers that are seeing the first signs of young 
people being groomed or young people being approached by 
radicalizers. And so we need a compelling set of tools, some of 
which we have started to develop, to get ahead of that problem.
    We need more female practitioners in the CVE space. This is 
vital, because we need to be addressing this from a gender 
perspective. And we need a human rights approach that is 
consistent and sustained. We need to be upholding female human 
rights around the world in ways that perhaps we have grown lazy 
about and relativist in our approaches.
    They have a massive head start, massive resourcing. We need 
to now scale up what we know works. We do know that a number of 
things work. We have data to prove that in the experiments that 
my Institute has undertaken in the counter narrative space we 
can reach the individuals who are at risk very directly, and we 
can have an impact by engaging with them.
    So we need to implement that competition strategy, so that 
we can drown out ISIS both on and offline.
    [The prepared statement of Ms. Havlicek follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
                              ----------                              

    Chairman Royce. Thank you.
    To begin Mr. Watts' testimony, I think we are going to show 
a brief clip from his documentary Escaping ISIS. So we will see 
if that works.
    [Video played.]

STATEMENT OF MR. EDWARD WATTS, DIRECTOR AND PRODUCER, ESCAPING 
                              ISIS

    Mr. Watts. Thank you, Mr. Chairman, and distinguished 
members of the committee, for the opportunity to testify today. 
For the last 6 months, as has been said, I have been working on 
this film called Escaping ISIS in the U.S., Escape from ISIS in 
the UK, that explores what life is like for an estimated 4 
million women living under the rule of this Islamic State 
group.
    I believe it is the most important subject I have covered 
in my career, and I am very glad the committee has made it the 
focus of this special hearing.
    The treatment of women by ISIS is sometimes overshadowed by 
the terror group's more spectacular atrocities, yet I would 
argue no other section of society suffers more on a day-to-day 
basis at their hands. In the course of my work, I documented 
ISIS's abduction of thousands of non-Muslim women and girls, 
their sexual enslavement, and even the rape of girls as young 
as nine.
    I gathered testimony that described markets where ISIS 
trade young women like cattle, or even rent them to each other 
for a few hundred dollars. They crimes are condoned, even 
celebrated, by ISIS's official publications. And it is 
important to remember that Muslim women, too, endure terrible 
oppression.
    They are subject to severe limitations on their freedom of 
movement and right to education and work. They must abide by a 
strict dress code enforced through harsh physical punishments. 
Some are coerced into marriage to ISIS fighters; others have 
been stoned to death on trumped up charges of adultery. This 
should be the stuff of history books, not contemporary news 
reports.
    It is worth noting as well that ISIS's extreme 
interpretation of Islam is not shared by the majority of 
Muslims in the territory under their control. Yet disturbingly 
I met a woman who had been forced to join the organization and 
then subsequently so thoroughly brainwashed that she now shared 
ISIS's vision for society, even to the point of punishing 
others who defied it. And we know, as Ms. Havlicek said, that 
young women from our own nations have been targeted for similar 
indoctrination and lured to the territory under the extremist 
control.
    Such stories show that this is a struggle not only with the 
terrorist organization but also a system of ideas, one that 
threatens the principles on which our modern society is based. 
It is understandable that from afar we may feel powerless to 
stop these atrocities, but there is action we could take.
    As you have seen, during the course of filming I met a 
number of local activists who with almost no outside support 
were risking their lives to undermine ISIS's rule and save the 
women and girls they can reach. Those activists could use our 
help, and we could do more to support the rehabilitation of 
women who come back, often with severe psychological and 
physical trauma.
    The example of those survivors and activists should inspire 
us to reevaluate our policies and ask what more we can do. 
Renewed action is not only necessary but urgent. Every day that 
ISIS exists, more women will suffer horrendous violence or 
sexual assault, and more people will be subject to 
indoctrination in their ideas.
    The fight against ISIS is all of our fight. It will require 
time, effort, and sacrifice on our part, too. But in ending 
their regime, we all stand to gain.
    Thank you.
    [The prepared statement of Mr. Watts follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Chairman Royce. Thank you, Edward.
    Dr. Kuehnast.

  STATEMENT OF KATHLEEN KUEHNAST, PH.D., DIRECTOR, GENDER AND 
 PEACEBUILDING, CENTER FOR GOVERNANCE, LAW AND SOCIETY, UNITED 
                   STATES INSTITUTE OF PEACE

    Ms. Kuehnast. Good morning, and thank you, Chairman Royce 
and Ranking Member Engel, for this opportunity to testify 
before you today on an important and timely subject.
    As ISIS captures land, resources, and people, it has 
borrowed a page out of the history book of other wars where 
deploying sexual violence destroyed families, communities, and 
the very moral fiber of a society.
    When sexual violence is used in war, or by extremist groups 
to achieve their ends, it can be even more devastating than a 
gun. Major General Patrick Cammaert, a retired U.N. force 
commander in Eastern Congo, said that sexual violence is 
cheaper than a bullet and far more effective in its efforts to 
destroy an individual, a group, or a society.
    How best should the United States Government respond to 
these horrifying accounts out of ISIS-controlled areas? Sexual 
violence and conflict must be seen by Congress and in U.S. 
foreign policy as a security issue. It is not simply a women's 
issue, even though many of its victims are women. It cannot be 
solved by women alone, nor can prevention happen in isolation.
    Through U.N. security resolutions like 1325 and 1820, and 
our own U.S. National Action Plan on Women, Peace, and 
Security, sexual violence is framed as a peace and security 
issue. For the sake of this testimony, sexual violence includes 
acts of individual rape, gang rape, sexual slavery, sexual 
torture, genital mutilation, and sexual humiliation. Its 
victims are all ages, men and women, boys and girls.
    For women and girls, the results of sexual violence 
perpetrated individually or on mass scale by ISIS results in 
isolation, exclusion, suicide, and, in the case of some parts 
of Iraq, murder by a family member in order to ``preserve the 
family's honor.'' There is no easy path to healing from rape 
and sexual violence and conflict. It is a long-term process and 
must be an integral and formal part of reconciliation in post-
conflict situation.
    A year ago, I testified before this committee on engaging 
and educating women and girls in the prevention of violent 
extremism. I emphasized, in addition to supporting girls going 
to school, we must strategically engage fathers, brothers, and 
sons in learning about gender equality to further enable a more 
capable and inclusive state, and to help end violence as a 
means of resolving conflict.
    In the same way, policymaking community needs analysis and 
programming on how to help societies that have fused manhood 
and violence together as we see going on in ISIS today. Truly, 
this is a rite of passage issue. If the only way to become an 
adult male in your society is through a right of passage 
involving violence and war, then the chances for peace and 
security are significantly reduced.
    It is alarming the way ISIS is reaching into the hearts and 
minds of very young people even under the age of 14 years of 
age, to entice them with promises of belonging and a violent 
sense of power over women and girls. This issue is why I 
believe the next security and peacebuilding challenge deserving 
our full attention is on children, peace, and security. It 
identifies both the humanitarian services and protections 
needed for boys and girls in war and in refugee camps.
    Over the past year, reports have emerged that ISIS is 
setting their sights on young children. In March of this year, 
the London-based monitoring group, the Syrian Observatory for 
Human Rights, reported that ISIS had recruited at least 400 
children this year. They refer to them as ``tiny terrorists.'' 
Children are used in combat missions to execute prisoners and 
spies, families and neighborhoods, and markets and schools. 
Yes, it does remind us of another era of the Nazi generation of 
young recruits.
    Because we are not collecting complete datasets on boys and 
girls, we are not fully tracking ISIS recruitment efforts. The 
Observatory reports boys as young as six are recruited into the 
``Cubs of the Lions'' of the Caliphate. The boys are lured with 
the idea of money and weapons, shipped off to camps where they 
learn to shoot rifles. First, they learn to behead dolls, and 
then they execute human hostages.
    For girls, the tactic of sexual violence takes the form of 
kidnapping girls, enslaving them, reselling them as ``child 
brides.'' There is nothing childlike about these brides, and 
there is nothing bridelike about an enslaved girl.
    The reality of ISIS trolling for children is something that 
should cause us great anxiety. We have inadequate data to fully 
understand what is happening in front of our very eyes. If we 
are to fight this trend, we need better data, how many children 
are being recruited, what is happening to them in the camps, 
can they be rescued and returned to society.
    Years ago, I spent a summer working with 5- and 6-year-
olds, Protestants and Catholics, in Northern Ireland during the 
troubles. I learned every night how early hatred is taught. I 
learned that vengeance even helps children rationalize the kind 
of violence that they have lived through. Such narratives of 
hate are now easily conveyed through social media.
    At a recent conference at USIP on women encountering 
violent extremism, Mrs. Bangura with the U.N. stated that ISIS 
is using modern communications in the service of a Medieval 
agenda. She stressed, ``Information is ISIS's oxygen, and we 
must suffocate them.''
    By employing the best of the free world's technology, 
ironically, ISIS has infiltrated social platforms like Facebook 
and Twitter. And, believe me, I am the mom of twin girls who 
are 14, and they have access to all of this information. It is 
startling. It is not just happening over there.
    Indeed, a greater emphasis must be placed on children, 
especially those growing up in refugee crisis. It is worth 
remembering that there are more displaced people in the world 
today than anytime since World War II. The U.N. refugee agency 
reported last year that it has exceeded 50 million people. This 
includes many, many children.
    ISIS is paying families for their boys to pick up a gun and 
their girls for sexual slavery. What kind of alternatives can 
be offered to the families so that children can pick up a 
pencil and learn while they are in these camps? We need to 
teach critical thinking skills. It is not enough to read; we 
need to help them understand how to think through the 
challenges that they face at a very young age.
    Finally, we need age-sensitive ``exit ramps'' for children 
and youth who have been entangled in the web of ISIS control 
and brainwashing. We need to recognize that refugee children 
need food for their minds as well as food for their bodies. We 
need to encourage greater education at these refugee camps.
    Ideally, the very, very best trauma counseling and healing 
assistance is necessary for victims of sexual violence and 
witnesses of that sexual violence. Otherwise, we stitch the 
violent experiences and memories into the DNA of this very 
young generation.
    As the largest age cohort of children living on this planet 
approach their adolescent rights of passage to adulthood, we 
need to find ways to inspire and expand the free world as ISIS 
tries to offer shortcuts to a violent adulthood. We know all 
too well that violence is the shortest path to losing a 
childhood, a vision, and the way forward.
    Thank you very much for your time.
    [The prepared statement of Ms. Kuehnast follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Chairman Royce. Thank you.
    Dr. Ahram, you have 5 minutes.

STATEMENT OF ARIEL AHRAM, PH.D., ASSISTANT PROFESSOR, VIRGINIA 
        TECH SCHOOL OF PUBLIC AND INTERNATIONAL AFFAIRS

    Mr. Ahram. Thank you, Mr. Chairman, and the committee, for 
the opportunity to speak about the catastrophic sexual violence 
occurring in Syria and Iraq today. I use the word 
``catastrophic'' to stress to you the magnitude of the crisis. 
The Islamic State has systematically abducted, enslaved, and 
sexually terrorized thousands, and likely tens of thousands, of 
women and girls.
    There are two common but equally unhelpful perspectives on 
this situation. The first is to see ISIS as a unique collection 
of religiously crazed thugs. The second is to dismiss sexual 
violence as a natural and inevitable byproduct of the civil war 
enveloping Syria and Iraq today.
    Research by Dara Cohen and Ragnhild Nordas show that sexual 
violence is common in many but hardly all civil wars. Rape is 
particularly prevalent when fighting groups have trouble 
recruiting combatants or rely on contraband to finance their 
operations. Rape can be part of an operational culture, even if 
it is not specifically ordered by commanders. With that in 
mind, it is important to consider ISIS's sexual violence not 
just in the context of the war that ISIS is fighting but also 
the kind of state that ISIS is building.
    Three types of sexual violence are especially noteworthy. 
The first is sexual enslavement of women and girls. Sexual 
enslavement is uniquely reserved for sectarian groups, which 
ISIS considers to be apostate or heretical to Islam--Shi'is, 
Alawais, Yazidis, Druze, Shabak, Baha'is, and Sunni Muslims 
that differ from ISIS's religious interpretations.
    ISIS selectively cites Islamic jurists to justify treating 
people from these groups as spoils, essentially property. They 
are raped at will. Captured women are enslaved in brothels and 
sold on the street, yielding a revenue stream to ISIS. Sexual 
enslavement is also part of a process of ethno-sectarian 
annihilation.
    Besides immense physical harm, sexual violence induces 
dishonor and shame among its victims. Even if they escape, 
former captives are often considered despoiled and ineligible 
for marriage, in effect preventing whole generations from 
procreating.
    There are many reports of suicide and honor killings. 
Perversely, this type of sexual violence yields another 
strategic benefit to ISIS. Children born from such rape are 
generally considered to be Sunni Muslims and, therefore, 
augment ISIS's demographic base.
    The second type of sexual violence is forced marriage of 
women and girls. Unlike sexual enslavement, marriage entails 
reciprocal obligations through dowries. These marriages turn 
ISIS members into ``one of the family,'' so to speak. ISIS's 
predecessor, al-Qaeda in Mesopotamia, tried to extort tribal 
sheikhs in western Iraq to marry their daughters to ISIS 
fighters. Many sheikhs apparently resisted this, a factor which 
motivated tribes to join the Awakening movement.
    Keeping in mind that ISIS permits polygamy and child 
marriage, we have no idea about the wishes of the women 
themselves. Today, ISIS continues to build networks through 
forced marriage and operates marriage bureaus to find spouses 
for male fighters. Foreign fighters are reputed to offer bridal 
prices in the tens of thousands of dollars.
    The promise of finding an eligible spouse has been an 
element in ISIS's effort to attract foreigners, both men and 
women. For those caught in the war zone, marrying into ISIS may 
seem a way to ensure protection for themselves and their 
families.
    Thirdly is ISIS's sexual violence against men and boys. 
ISIS has tortured and killed accused homosexuals in especially 
horrifying ways. There are also sketchy reports of ISIS 
sodomizing adolescent boys as part of an initiation or 
induction of child soldiers. This is consistent with other 
cases where sexual violence induces shame, and, therefore, 
increases barriers to exit should a recruit try to flee.
    ISIS's brazen and systematic campaign of sexual violence 
represents a crime against humanity and is widely reviled in 
the West and in the Islamic world. However, ISIS is not the 
only belligerent to carry out sexual violence. Other rebel 
groups, as well as Iraqi, Kurdish, and Syrian security forces, 
have also used sexual violence, including rape and sexual 
torture.
    Recognizing this gives a better appreciation of how Sunni 
Arabs might view ISIS as a defender of their interests. It also 
underscores the point that ISIS is not the sole cause of the 
crisis.
    What can be done to help the situation? I fear that a 
military response will likely produce even more population 
displacement and leave more women and children vulnerable to 
sexual exploitation, at least in the short term.
    There are, instead, a number of non-military measures that 
can help ameliorate the crisis. The first is to aid neighboring 
states to stop the flow of human trafficking in their 
countries. The second is to pressure Syria and Iraq to stop 
using sexual violence themselves. This would include the 
activities of pro-government militias like the Popular 
Mobilization Forces and the National Defense Units in Syria.
    Finally, the U.S. must support the United Nations and NGOs 
working directly with victims of sexual violence. These efforts 
will be crucial in assisting victims reintegrate with their 
communities.
    Thank you.
    [The prepared statement of Mr. Ahram follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                  ----------                              

    Chairman Royce. Thank you. I was going to ask you a 
question, Doctor, just about the reality that, despite the 
brutality, you read these cases where they actually convince 
local girls to adopt their extremist views. Can you maybe 
explain that process to me?
    Mr. Ahram. ISIS relies a great deal on knowledge of the 
local conditions for its operations. The core of ISIS is 
derived from Sunni Arab tries in western Iraq. They understand 
the local mores, and often those local mores are quite 
conservative to begin with. And so the proposition that women 
should remain covered, that they should stay in the house, that 
does not seem as alien to people in those areas as they 
necessarily would to us.
    That said, we don't know the inner wishes of the women 
involved. Especially when we talk about marriages, we are 
talking essentially about deals that are struck between men 
regarding the fate of women. And so we often find cases where 
people are put into marriage relationships where they may not 
want to be, but they feel like they have obligations to their 
family or they feel like they have no other choice, or not know 
any different.
    Chairman Royce. I will just ask Mr. Watts if you observed 
the same thing in your interviews with these girls, and then I 
will follow that up, if I could, with another question.
    Mr. Watts. Yeah, I did. I met three women who had been 
essentially, as Dr. Ahram described, sold effectively to ISIS 
fighters through a deal with their family. ISIS targeted the 
poorest families. They were married to foreign fighters, all 
three of these girls, and in the process of indoctrination I 
think just is one of slow, day to day, as they described it to 
me. Literally slowly, slowly they began to persuade me about 
the force of their ideas. And I think that is one of the most 
important things to understand is that they are able to 
convince people that this is the correct way in which Islam is 
to be practiced, even women who don't agree.
    Chairman Royce. Well, that was one of the points that Sasha 
had made in her written testimony. I didn't hear you say it 
here, but you had laid out this thesis that over time there had 
been sort of a movement of radicalization that, despite all the 
diversity around these continents, increasingly there was a new 
world view here being pushed. I don't know if that's in the 
Deobandi schools, or where it is. But this ideology, maybe you 
could articulate that, Sasha.
    Ms. Havlicek. Yes. Absolutely. In my view, there has been 
an aggressive and very well-resourced, very well-funded export 
of a specific stream of thinking that is the intellectual 
underpinning for these movements, making it of course much 
easier in many senses to recruit to groups like ISIS.
    Thirty years of export I have seen directly in regions like 
the Balkans where this Wahhabi Salafi ideology is absolutely 
alien to the local cultural traditions and practices of Islam. 
And they were sown insidiously in the aftermath of the war, 
when there was enormous desperation, economic and other, and 
Saudi charities setting up shop, providing handouts to families 
if they are--if they were to adopt stricter pre-modern Islamic 
codes.
    This was done to some extent tongue in cheek by 
communities. It seemed sort of unimportant at the time, but it 
has had an absolutely insidious effect over the last 20 years 
and has shifted cultural norms. We really desperately need to 
be upholding those groups and individuals who usually with next 
to no support are trying to protect the very diverse cultural 
heritage and the practices of Islam in places of course as 
diverse, you know, as South Asia to the Balkans.
    Chairman Royce. Do you see a role for mothers here? Because 
I can just tell you in West Africa, North Africa, Central Asia, 
I have heard this argument over and over and over again that 
they are changing our culture, they are changing my culture, 
from parents about what is happening to their children. And 
this has been going on now for maybe 20 years. I am trying to 
remember the first time I have heard it, but I have heard it so 
many times in so many communities.
    Ms. Havlicek. I mean, women, as the primary vectors of 
cultural and religious transmission, are extremely important 
for extremists. Since well before ISIS, extremist organizations 
had propaganda targeting women. They know that if they have got 
women in their camp, the extremist project is much more likely 
to succeed, and so the cultural shifts will come through those 
women.
    And so to some extent the shifts, as you have said, have 
been decades long, decades in the making. And so ISIS, in my 
view, is a kind of cherry on the cake but not the cake.
    Chairman Royce. Mr. Engel.
    Thank you.
    Mr. Engel. Thank you, Mr. Chairman.
    Dr. Kuehnast, let me ask you this. In your work in 
countering violent extremism, I understand that your 
organization has completed several assessments on women's 
programming in both Iraq and Afghanistan. And correct me if I 
am wrong, you found three areas in need of focus, which is 
reaching out to rural women, not just those in urban areas, 
engaging religious leaders, and working with men and boys.
    Can you tell us--first of all, am I correct in the way I 
describe it? And can you tell us why these areas you have been 
working on and working in are important in countering violent 
extremism?
    Ms. Kuehnast. Yes. Thank you very much for the question. 
First of all, these were assessments that we did both on our 
work with the U.S. Government on women's programming in Iraq 
and in Afghanistan, but also engaged Iraqi and Afghan women.
    Key issues that they identified are that because so much of 
the populations--and this would be true in parts of Africa as 
well--live in rural regions, whatever is happening among 
perhaps elite, educated women in the urban areas is not 
necessarily the same world that rural women live in. The access 
to information, certainly television, other forms of ways to 
learn what is going on in the world, is very reduced, and their 
worlds are reduced and much more hierarchical in terms of their 
status in the family.
    That is why they recommended that no women's programming 
should be done in isolation or in a silo without engaging the 
men in their lives--the fathers, the brothers, the sons--as I 
mentioned in my testimony, that it is very key to begin 
engaging with a full gendered perspective, since men are, too, 
gendered beings. And we see, and ISIS has mentioned in other 
testimonies here today, that the concept of what it means to be 
a real man is being used very strategically, by women, by men, 
to influence young men. And so, again, it is important to bring 
men into this picture.
    And, finally, of course, there are religious leaders, who 
for the most part in our world today are men. We must engage 
them in--certainly, in their perspectives on the role of women, 
both in the home and in public life, and also in the role that 
they can play in preventing violence.
    I did want to comment just very briefly on the Soviet-
Central Asia space, particularly in Kyrgyzstan. A year ago, we 
did a session with young university students in Kyrgyzstan, and 
they identified this issue of violent extremism, which they 
felt was growing, especially in the south of their country. It 
was related to the fact that for 70 years they were a secular 
country. They knew nothing about what Islam was. And, indeed, 
the very first propaganda, if you will, was the Wahhabis, who 
entered into South Central Asia.
    And so part of the dilemma that they recommended to us was 
that we need to have much more engaged religious dialogue 
between religious experts on Islam and secular populations, so 
that people are understanding what is real Islam versus what is 
being promoted or propagated by extremist groups.
    Thank you very much.
    Mr. Engel. What have you found is the major difference 
between women in urban areas and women in rural areas? What 
have you found in your work that makes it harder for one group 
or another?
    Ms. Kuehnast. Very simply, time. Women living in rural 
regions often are having to access water, food, any kind of 
efforts on behalf of their children or parents, by foot. It is 
not like urban settings where there is transportation options 
available to them.
    So time is of the essence, and the number of commitments 
that they have to make sure that there is food, that there is 
care for children and elderly, all of that very much limits 
their bandwidth in an everyday world. Radio is the best access, 
and we have found great success in our programs in South Sudan, 
in Iraq, in Afghanistan, using radio as a way to help shape 
positive messages.
    Mr. Engel. Thank you.
    Let me quickly, Mr. Watts, ask you--we saw a little clip of 
your film. It seemed extraordinary to me. It seems to me that 
the Yazidi lawyer could be living in a comfortable place, a 
comfortable life somewhere else in the world, and yet he risks 
everything to save these women and these girls.
    I would like you to tell us a little more about that. What 
do you think drives him to do this? And how can he inspire 
others to help? What is the Iraqi Government doing about the 
situation, the missions this lawyer undertakes? Can it be 
cheap? How much do they cost? And who is funding them?
    Mr. Watts. Yeah. Well, he is an extraordinary individual, 
because, as you say, he has taken this on pretty much 
individually. There are about six guys, six or seven guys, who 
are actually involved in trying to organize these rescues. And 
they have essentially come up with a methodology completely off 
their own back, gathering information from women who have 
returned, making contact with people inside ISIS territory who 
don't agree with their views, or who are willing to help the 
network for money, as you say.
    So he is an extraordinary character. There aren't many 
people like him necessarily, and I think he is doing it simply 
because this atrocity is so devastating to his community. It is 
an extremely conservative community, the Yazidis, where honor 
is very important, men and women live very separate lives, and 
ISIS has crashed in and essentially really hit the foundation 
of their community and their future of their community, because 
a lot of young boys have also been taken and are now being 
indoctrinated in ISIS's ideas.
    In terms of the support they are getting, the Kurdish 
region of government has set up an office for the affairs of 
kidnapped people, which does, in a slightly ad hoc way, provide 
funds toward these rescue missions. Sometimes those missions 
occur for free, because there are people inside ISIS territory 
who are so opposed to ISIS's ideas they are willing to do it 
for humanitarian reasons.
    There are other people who are so impoverished by the 
blockade of ISIS territory they are willing to help. There was 
a shepherd that was--I knew about who for $100 guided something 
like 20 people through the mountains.
    But the problem is, this is all, as Khalil himself 
described it to me, it is a DIY operation. And that is one of 
the messages that I am hoping to get across to all of you 
today, is that these guys are doing extraordinary work inside 
ISIS territory. And through their work, we learn a much more 
realistic picture about what it is actually like inside ISIS 
territory.
    There are people opposed to their rule. It is a 
dictatorship, enforcing a certain system of rules on a local 
population. And I think that their efforts could be supported 
in that way, and their work is also potentially giving us 
important intelligence that could guide a broader strategy as 
well.
    Chairman Royce. We will go to--thank you. We will go to 
Chris Smith of New Jersey.
    Mr. Smith. Thank you so very much, Mr. Chairman. And I want 
to thank all of you for bearing expert witness to this 
pervasive, systematic exploitation against women, this violence 
against women, and for your policy recommendations, which will 
be very, very helpful.
    Let me ask you, first, Ms. Havlicek, in your testimony, you 
point out that there is a shifting terrorist landscape, 
understanding women not just as victims but as perpetrators of 
extremism.
    And, as we all know, all around the world, in human 
trafficking, syndicates often use women as the leaders in the 
subjugation of their victims. And the level of violence and 
gross indifference to the plight of those victims often equals 
that of their male trafficking partners.
    And I am wondering if you could tell us, is that what it is 
like--is that what it is--are they using these women, ISIS, the 
ones that are becoming radicalized in that regard?
    Let me also ask, you said with regards to our response that 
we need to reach the at-risk people directly, and all of you 
have pretty much cited some of the ways that that can be done 
through social media, and the like. But I am just wondering, in 
the counter strategy, what role do elementary and secondary 
schools, particularly in the West, have to play to try to 
provide a defense there?
    Mr. Watts, you have pointed out that non-Muslim women are 
enslaved and raped. And I am wondering, you say how Muslim 
women are also oppressed and treated extremely harshly. But are 
they also sold? And what happens when a Muslim woman speaks out 
in some way, tries to defend other women who don't happen to be 
Muslim? Is she then really selected out for extreme punishment?
    Dr. Kuehnast, if I could ask you, you made an excellent 
point about the focus on children. You point out that in March 
of this year the London-based monitoring group, the Syrian 
Observatory for Human Rights, found that ISIS had recruited at 
least 400 children, and that is in 3 months, you know, from the 
beginning of the year to March. At least--I am not sure what 
the time period is.
    And I am wondering, is this parallel to child soldiers of 
Joseph Kony, Charles Taylor, that we saw in Africa? And then 
you talked about how they are shipped off to camps. Is that 
boys and girls? And where are those camps? What do they look 
like? If you could maybe elaborate a bit on that.
    And, Dr. Ahram, you mentioned that ISIS selectively cites 
Medieval Islamic jurists to justify treating people from these 
groups as spoils, essentially property, and that they are raped 
at will, and you go on. Maybe you could elaborate on those 
Medieval texts and who these scholars are, and jurists, and 
that would be very helpful to the committee. And anything you 
can provide additionally for the record on that would also I 
think be very helpful.
    [The information referred to follows:]
  Written Response Received from Ariel Ahram, Ph.D. to Question Asked 
        During the Hearing by the HonorableChristopher H. Smith
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Smith. Ms. Havlicek.
    Ms. Havlicek. Thank you so much. In terms of the first 
question about how they are being used, I think it is very 
clear that ISIS has had a targeted strategy to recruit women, 
so they value them as part of the operation on a number of 
different fronts.
    They are using Western women in particular in the 
propaganda recruitment machinery that they have developed so 
successfully. Western women are prolific in social media 
spaces. They are providing both practical advice to women and 
men as to how to get out there, how to avoid security services, 
their parents, and so on, and then of course ideological advice 
and propagandizing.
    They are very important from a PR perspective, because the 
fact of a young Western woman leaving all of the so-called 
freedoms of the Western world and choosing of her own volition 
to travel to ISIS territory and to adopt this new life and 
world, is extremely compelling. And, of course, the PR value is 
also in the fact that media has disproportionately covered this 
story of Western girls, so they know that they are high PR 
value.
    The piece of this which is really troop morale strategy is 
about making sure that fighters, foreign fighters writ large, 
who like the idea of Western brides are getting a steady stream 
of these girls in. There is a functional dimension to this.
    And then, of course, the question of building the next 
generation. That is I think key. They are taking a long-term 
view on the life of ISIS. This is the state-building piece of 
the strategy, which is really about rearing the next generation 
of jihadis. And so in so many ways that radicalization is 
absolutely intrinsic for the success of the long-term project.
    On the second point, you asked about what we could be doing 
in schools for instance. I think that there is an absolutely 
critical job to be done on inoculating young people in two 
ways. One, we need a much, much better, a stronger approach to 
sensitizing young people to extremist propaganda. And we need 
critical thinking skills specifically in terms of how young 
people are using the internet.
    We have developed a program which combines extremely--and I 
should say, you know, myth-busting doesn't work for young 
people in this space. What is drawing them in is the incredibly 
emotive material that they are being exposed to on a 24/7 basis 
in these social media environments, in the echo chambers that 
they are entering into online. It is extremely emotive.
    And so we can't come back with a set of facts about what 
doesn't work. We need emotive stories to counter that, the sort 
of work that Mr. Watts has done, absolutely critical. But, 
again, the voices of formers, of survivors, are absolutely 
critical.
    We have developed a series of films based on those sorts of 
testimonies, and accompanied that with a state-of-the-art tool 
for teachers, a set of guides for teachers to use that kind of 
material interactively in a school setting, in a community 
center setting, for parents to start to engage their children 
in the difficult conversations that need to be had now with 
young people about what they are starting to see or about to 
start to see. They need to be inoculated.
    Chairman Royce. Ms. Havlicek, we best go to Albio Sires of 
New Jersey. Thanks.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing, and thank you for being here.
    Mr. Watts, that is pretty powerful in just a few minutes. I 
am just wondering when these survivors--or when you reunite 
some of these children and women, how damaged are they? Do they 
make it back? I mean----
    Mr. Watts. The damage is incredibly severe. It is the worst 
I have seen, having covered conflicts and sexual violence in a 
number of places around the world. If you see the film, there 
is one example of a 21-year-old girl who suffered a physical 
traumatic flashback as she was describing what she had been 
through, where she physically struggled for breath, she 
collapsed, she effectively passed out and had to be brought 
around with medical assistance. And her case is not isolated.
    I spoke to a doctor who is dealing with the women coming 
back who said that that was actually quite a common phenomenon. 
I think partly because of these girls--they are very young, 
they are from a conservative society that has had no real 
education about sex, and then they are taken into the worst 
possible sexual atrocities imaginable, and the effect on their 
mind is quite severe.
    Physically, though, as well, there was a case of a 9-year-
old girl. I didn't meet her myself. She had been raped multiple 
times and was now pregnant. And, you know, it is really the 
most extreme physical and psychological trauma that you can 
imagine, and they are pretty understaffed as well to handle it.
    Mr. Sires. Do they have any kind of normal life after this? 
Not just you; anybody else that wants to. Doctor?
    Mr. Watts. Well, I would say that I--I met an 18-year-old 
girl who had been raped. During her testimony to me, she 
described being gang-raped on two occasions and raped in total 
by up to 30 different fighters. And she is 18. I met her for 
dinner the other day to give her her first pizza. And if you 
saw her in the street, you would not believe what happened to 
her. She seemed like a normal 18-year-old girl, laughing, 
joking.
    So I believe that these young women and girls have such 
incredible strength. They show amazing powers of recovery. But 
it is incredibly difficult to overcome what they have been 
through.
    Mr. Sires. I find that hard to believe, but I take your 
word for it.
    Ms. Kuehnast. Thank you. I would just add a couple of 
thoughts here. There are neurologists and neuroscientists who 
are studying the impact of extreme trauma on the human brain. 
And I think that is why in my testimony I am advocating for 
more data. We know that it affects literally the brain, and 
that is why this type of trauma happening to a child could 
affect them the rest of their lives.
    There is no doubt, though, that one of the other major 
findings that we are seeing is that the vulnerability of this 
next generation as a result of trauma sets us up for more 
concerns. There is a phenomenal researcher, Dr. Wendy Lower, 
who studied the role of women in the Nazi killing fields. And 
one of her premises is, what happened in World War I, and what 
they witnessed, helped set up the situation and the 
vulnerability for the engagement of women and children in these 
efforts. We should learn from our history as well.
    Mr. Sires. You know, Muslim scholars and imams from around 
the world have called ISIL members un-Islamic and have 
condemned the treatment of women they have captured. Some 
believe that the battle against ISIS can be won by winning the 
hearts and minds of these fighters through transforming their 
view of women as part of the Islam faith. Would you agree with 
that assessment? Doctor?
    Mr. Ahram. I think this relates both to your question and 
to Congressman Smith, and I will have to offer commitments for 
the record in more detail.
    Mr. Sires. Doctor, would you just hit that button there?
    Mr. Ahram. I will have to offer comments for the record in 
more detail. But I think that one of the most important things 
about ISIS is that they have looked at Islamic history through 
a lens really fashioned by a thinker, an Egyptian thinker named 
Sayyid Qutb offered the idea that in certain circumstances 
Muslims were in a position to declare other Muslims to be 
apostate, to be un-Islamic. That was really an innovation that 
came about in the 1940s and 1950s.
    That ability to say that ``We are real Muslims and you are 
not,'' had never really existed in the Islamic world before. 
ISIS is very aggressive in declaring that other groups that 
consider themselves to be Muslim, that they are not legitimate. 
And because they are not legitimate, they can be targeted.
    So I think that it really is a battle of ideas within the 
Muslim world, just as much as it is a competition between what 
Dr. Havlicek described as a battle between the West and the 
Islamic world. There very much is a great deal of contention 
about who has the right to determine what is Islamically 
permissible.
    Mr. Sires. Thank you very much.
    Chairman Royce. Thank you.
    Mr. Jeff Duncan of South Carolina. Will pass.
    Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate your 
testimonies here. If you guys could kind of give me the outline 
of a person, what makes a person want to go over there from a 
Western culture? What is the demographics you see? Age? 
Financial background? Religious background? Family structure, 
if you have that, that would draw somebody to that? I just--I 
find it unfathomable that somebody would do that by choice.
    Ms. Havlicek. Perhaps I could take that up. Based on the 
dataset that we have just of Western women joining ISIS, what 
is interesting is that they don't lend themselves easily to 
profiling, to actionable profiling. They are very diverse in 
terms of their socioeconomic backgrounds, in terms even of 
their religious backgrounds, and in terms of their educational 
attainment. We do see girls, in general, more educated than 
boys, some as educated as doctors.
    Mr. Yoho. Let me interrupt you here. Have you done 
retrospective studies going backwards, after you have found 
people over there that have gone over there, and then gone back 
and say, ``All right. You came from this background; you have 
done that''?
    Ms. Havlicek. That is right. We are looking at the 
backgrounds of the girls and women in our dataset who have 
migrated from Western countries and are now living in ISIS 
territory, as far as we can see it from the data.
    And there are some trends. We are seeing on average the age 
diminishing in terms of female recruits in line with the fact 
that of course the fighters will want untarnished wives, 
obviously unmarried girls. We are seeing--we do see a high 
proportion of converts within that group, and I think that that 
is coming across radicalization, women and men. But essentially 
they are not lending themselves to that kind of social 
profiling.
    In terms of the--what has been interesting is looking at 
the narratives that they themselves use to justify their own 
departures from the West, their own joining of ISIS. There is a 
number of narratives that are quite prevalent, some of which 
are common to the male datasets that we look at.
    They are about the global Muslim community being under 
attack, about the inaction of the international community to do 
anything about that, about their own feelings of isolation 
within Western societies, and then--and as I mentioned, for the 
girls, there is a gendered aspect of that identity questioning, 
which is really about whether the Western emancipation project 
has resulted in what we thought it would.
    Does it in fact free, or does it enslave you in some other 
way? And so the narrative is actually about getting away from 
the ``tyranny'' of Western female emancipation to some extent 
as part of that narrative, and justifies the extremely 
puritanical iterations that we see of Islam.
    Mr. Yoho. All right. Let me ask Dr. Kuehna--is it Kuehnast?
    Ms. Kuehnast. Kuehnast.
    Mr. Yoho. Kuehnast. What are you finding? Are the women 
that are going over there, are they from an indigenous culture, 
born here in a Western society, in Europe? Or are they from a 
Middle Eastern background that has migrated there? Maybe first 
generation or second generation, and there is a draw on them 
bringing them back to that area.
    Ms. Kuehnast. I would defer to my colleague, who probably 
has the data----
    Mr. Yoho. That is fine.
    Ms. Kuehnast [continuing]. Set more. But I will speak as a 
Central Asianist and what I know about that region. There are 
families actually going, so it is not even--they are going in 
groups. And some of the motivation is the draw of the income, 
especially as the labor migrants to Russia has narrowed, and so 
we see a push factor there that is often not necessarily 
ideological but an opportunity, if you will, to work.
    Mr. Yoho. What country do we see most of them coming from? 
Is there one specifically? Is it all over the European area?
    Ms. Kuehnast. Tunisia.
    Mr. Yoho. Tunisia?
    Ms. Kuehnast. Right?
    Mr. Yoho. Is that what you are seeing, too?
    Ms. Havlicek. Yes. I mean, from across Western countries, 
it is--again, it is very, very diverse. Ethnically speaking, 
the group is extremely diverse. In terms of our data, it is 
very, very poor with regards to recruitment from countries in 
the region, and that is one of the challenges that we do see.
    It is absolutely true that in a Western context what we are 
seeing, and certainly since the announcement of the caliphate, 
we tend to see girls going solo, unmarried women and girls 
going solo or in small groups.
    Mr. Yoho. I am out of time, and I appreciate your 
questions--or your answers, and I appreciate the work you are 
all doing. Thank you.
    I yield back.
    Chairman Royce. Thank you. We will go to Brad Sherman of 
California.
    Mr. Sherman. Thank you, Mr. Chairman. I am glad we are 
having a series of hearings on women. There is a tremendous 
correlation between a society's development and the 
opportunities for women. The more women are given a chance to 
expand their horizons, the richer, the more advanced the 
society becomes. And the more advanced the society becomes, the 
more women are included in it.
    We may disagree on some elements of family planning and 
some other things that I would like to see as part of 
international women's agenda, but I think our overlap would be 
quite substantial.
    This hearing is also about ISIS, and I think we have got to 
remember the enemies of ISIS are more dangerous and more evil 
than ISIS. Turkey believes that perhaps in the wrong way. They 
are bombing ISIS. They are bombing Kurdish groups that are 
fighting ISIS. If you look at Syria where the Shiite alliance 
has killed 200,000 people, we can say that is not as evil as 
ISIS because they don't put the exploding bodies on YouTube. 
They do not show the gruesomeness. They do not delight in the 
gruesomeness. But they killed 200,000 people, and those deaths 
are every bit as painful. They are just not on YouTube.
    The Shiite alliance in Iran where they are developing 
nuclear weapons, obviously, the Shiite militias that dominate 
the political scene in southern Iraq, Hezbollah, and of course 
Assad, should remind us that whatever we do against ISIS it 
cannot be for the benefit of the Shiite alliance.
    I have spent some time in this room talking about how our 
State Department can't possibly respond to the ideological 
threat of ISIS, because they refuse to hire anyone on the basis 
of their understanding of Islamic law, history, and 
jurisprudence. They won't hire anybody who doesn't have a 
certain number of Western academic brownie points.
    Now, you can be close to the top of your class at 
Princeton, or you can be the valedictorian at Cal State 
University at Northridge. But if you are just an Islamic 
scholar, and that is the only thing on your resume, you will 
not be hired. So what does this mean? It means we are fumbling 
around in the dark.
    We might show pictures of how gruesome and terrible it is 
that Yazidi girls are being forced to convert. But I don't know 
whether someone who accepts the tenets of the most extreme 
versions of Islam regards that as a terrible act or a wonderful 
way to help this woman, because I am not an Islamic scholar, 
let alone a scholar of extremist Islam.
    And I am not saying the State Department should issue 
fatwas, but we are doing a lot of unsigned advertising on the 
internet, designed to appeal to folks who have an extremist and 
deep motivating connection with Islam, and nobody writing these 
ads has much knowledge of Islam.
    And we occasionally might go to Islamic jurists and ask 
them the issue of fatwa, but it would be like writing a brief 
for an American judge saying, ``Please issue a ruling. And I am 
writing this to you, but I am not a lawyer and I haven't cited 
any cases. But the truth of my--the justice of my comments are 
so overwhelming.''
    Nobody would try to get an American judge to issue a ruling 
without hiring a lawyer and convincing that judge not on the 
basis of righteous compassion, but also on the basis of the 
things that lawyers and judges do.
    Dr. Ahram, you say that it wasn't until like the 1940s that 
the concept of apostasy was known in Islam. And I had thought 
that the Alawites and the Ahmadis had been accused of being 
apostates long before that. I mean, you have got, in the case 
of the Alawites, people who drink alcohol. You are saying until 
the '40s nobody called them apostates?
    Mr. Ahram. They had been called apostates, but the primary 
consensus had been that since no one was really in a position 
to be sure what ``apostasy'' means that no one should really be 
in a position to take action based on that consideration.
    ISIS, and other groups, have decided that they are in a 
position not only to be the judge but also the executioner when 
it comes to these decisions. They can make a decision about who 
is apostate and to carry out the sentence for apostasy.
    Mr. Sherman. Ms. Havlicek, what portion of the Western 
women who are going to join ISIS have parents who are Muslims, 
and what portion of them are folks with non-Muslim parents who 
first converted to Islam and then decided to join ISIS? Any 
guess?
    Ms. Havlicek. Obviously, ISIS is recruiting among young 
Muslims, so it is, in fact, the majority are Muslims. But there 
is a----
    Mr. Sherman. Well, there are two ways to be--two 
histories----
    Ms. Havlicek. Right.
    Mr. Sherman [continuing]. Of people who become Muslim, 
those who convert and those who are born.
    Ms. Havlicek. Yeah. So the conversion rate is very high per 
capita, within the dataset that we have, in that----
    Mr. Sherman. So a significant number of the women going 
have non-Muslim parents, were not born Muslim, they converted 
to Islam, then in fact converted to extremist Islam, and then 
converted to ISIS.
    Ms. Havlicek. That is right.
    Mr. Sherman. Yield back.
    Chairman Royce. We need to go to David Trott of Michigan.
    Mr. Trott. Thank you, Mr. Chairman. I also want to thank 
the ranking member for scheduling this hearing, and I want to 
thank all of the witnesses today for coming and sharing your 
insight. It is pretty clear from your comments we are not 
dealing with the JV team, and it is a little frustrating 
because, you know, sitting here listening to the discussion of 
the various atrocities, that is certainly productive because it 
draws attention to the problem and that needs to happen.
    But I can't help but feel that either because of a lack of 
understanding, or a general insouciance, that we don't have a 
plan. And so my comments--you know, my questions really shift 
more from discussing the problem, which all of you will have a 
better understanding of the problem than perhaps anyone in 
Congress ever will.
    So, to that end, I want to ask the entire panel, each of 
you, if you could give me a couple ideas, a couple solutions. 
And my question is two-fold. First, I would like you each to 
speak to how you feel the State Department's response to this 
problem has been.
    And then, beyond that, specifically, if you each could 
offer a couple ideas of things that Congress could work on or 
Congress could focus on or Congress could ask the 
administration to work on, what you think the resources and 
implementation would be required. It would be particularly 
helpful if the ideas don't require a lot of money, because we 
don't have a lot of extra tax dollars sitting around.
    But whatever your--if you were in charge for a day, what 
are the two things you would do in Congress or in the 
administration to make a difference on these issues? And we 
will start with you, Ms. Havlicek.
    Ms. Havlicek. Thank you so much. We understand that $26 
billion has been spent to date on training the Iraqi army over 
the last decade. I mention that figure because in the United 
Kingdom this last year we allocated 40 million pounds to the 
prevention side of this problem, that is to say, in a way the 
soft power side of this problem.
    I don't think it is serious. There is a quote of Osama Bin 
Laden of 2002 that says,

        ``It is obvious that the media war in this century is 
        one of the strongest methods. In fact, its ratio may 
        reach 90 percent of the total preparation for 
        battles.''

We have not taken on this soft power piece of the battle in a 
serious way. It, of course, does not require the type of 
funding that the hard power piece of this battle requires, by 
any stretch of the imagination, it will be an enormous amount 
cheaper.
    But just very quickly, I don't believe that a soft power 
strategy can be delivered just through government counter 
messaging centers. I don't, in fact, believe that counter 
narrative can be delivered by government. It has to be 
developed by credible voices. We have talked about a few of 
those constituencies here.
    Networks also of women are important in this, but former 
extremists, survivors of extremism, are important, credible 
voices. But those voices tend not to have the tools, the skills 
to be able to get their messages out at scale in any sustained 
way or in any strategic way. They have not been empowered. We 
need the power of our communications and tech sector on side to 
do that at scale, and that needs to be a combination things. So 
that has not happened as yet.
    We desperately need to do the intellectual challenging of 
``Brand Caliphate,'' and to do that we need to be building the 
sorts of networks, really working with the sorts of people that 
Mr. Watts is working with to get those ideas and stories out in 
a much, much bigger way.
    I do think that one of the things--one of the problems has 
been that governments, by and large, have focused essentially 
on this challenge of propaganda through regulatory response. 
That is to say, we want to take that nasty stuff down. That 
Whac-A-Mole approach tends in fact not to work. We have now 
just seen the establishment of a Europole Referral Center, 
which is to say lots of people in a room flagging nasty 
material and hoping that the internet companies will take it 
down. That happens very slowly.
    When accounts are taken down, of course, they go up very 
fast, but our research has shown interestingly that the second 
accounts of women, for instance, prolific recruiters and 
radicalizers, the second accounts of those women, once their 
first accounts have been taken down, tend to be more 
influential, i.e. more followers.
    And so we have to be careful that we are not doing 
counterproductive things in the takedown space, and so I would 
very much propose that we focus instead in a much, much more 
serious way on the counter narrative. I do believe that that 
needs to be mainstreamed in government policymaking through aid 
and diplomatic efforts.
    If we were to combine those efforts and those budgets, we 
would finally have the muscle in place to do something in this 
space. It does require that extremism, not just the violent 
piece of extremism, the non-violent piece of extremism that 
lays the intellectual foundations for extremism, is taken 
seriously and mainstreamed across policymaking centers.
    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Just picking up on what you just said, Ms. Havlicek, it 
seems to me that if it is going to be efficacious that needs to 
be an Islamic message, not a Western message.
    Ms. Havlicek. Absolutely. I am sorry if that wasn't clear.
    Mr. Connolly. No, no. I wasn't correcting you. I am just 
observing based on what you----
    Ms. Havlicek. Well, and credible voices as a whole are of 
course voices from within the communities, and they can be very 
diverse voices----
    Mr. Connolly. Yes.
    Ms. Havlicek [continuing]. From within the communities. And 
when I talk about building the networks, I mean networks of 
those front-line voices.
    Mr. Connolly. I understand. I am just so horrified, 
frankly, at the details of this hearing. For me, it starts with 
the whole issue of human autonomy. It is easy to compromise 
someone else's autonomy when I objectify them as apostate or 
``the other.'' By the way, not at all an Islamic phenomenon. I 
mean, that kind of objectifying of human beings has been going 
on since human beings arrived on the planet.
    I mean, there is a long, sad, tragic Christian tradition of 
doing that, Turquemada to wit. Heretics could be burned, 
because they were in error, although it seems to me that there 
is a contradiction here in this behavior with the Koran itself. 
And I would be interested in your observations.
    I also find it ironic that we are recruiting with 21st 
century Western social media. We are recruiting foot soldiers 
for a ninth century caliphate. And I just wonder if the cruel 
irony of that has struck anybody in the region.
    And then, finally, susceptibility, and I particularly would 
like your reaction to that, although the other two as well. It 
is very hard for us I think culturally to understand, outside 
of brainwashing, how can somebody--how can a culture, how can a 
village, how can large numbers of people being recruited 
elsewhere be so susceptible to such a barbaric, suppressive 
message and culture, whether you are a female or male.
    And what does that mean for us going forward as we try to 
think about a stable future some day? I know these are broad 
questions, but I think we need to better understand the 
susceptibility here, and some of it may very well have to do 
with, frankly, in some cultures the willingness to suppress 
women.
    Not like ISIS, but the sort of second-class for women, 
clearly not the equal of male, that culture ISIS is preying 
upon. I mean, it is taking it to an absurd degree, but--and I 
just wondered what your observations are about that, because I 
think if we are going to counter it we need to know a lot more 
than we know right now. Anyone?
    Ms. Kuehnast. Well, I just want to reinforce what you are 
asking in this fact that, indeed, I don't think this is 
anything new to the human race. It is just we do now have 
YouTube and photos and videos that document these atrocities. 
And in that fact it is new and it is what you say. We are 
seeing the impact of 21st century technology that we thought 
was about freedom of expression, about autonomy being used as a 
tool for extreme propaganda and violence.
    So, indeed, it is ironic, and it is troubling. But it is 
not necessarily a regulation issue. It is--we have been at this 
juncture as a human race before in moments of great 
technological shift. And we know we can also address it.
    Your comments about women and their role in society, there 
is a professor at Texas A&M, Valerie Hudson, who is basically 
working on a project, called Women Stats, where very convincing 
evidence is showing that those states that have gender 
equality, the chances for violence and conflict are much lower; 
that it is correlated, statistically speaking.
    Chairman Royce. We will go to Ileana Ros-Lehtinen from 
Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for convening this important hearing on a crucial subject 
that is often overlooked. I regret that I have to get back to 
the floor. I would like my statement to be made a part of the 
record.
    Chairman Royce. Without objection.
    Ms. Ros-Lehtinen. But I am pleased to yield my time to 
Chris Smith, so that Congressman Smith can get the answers 
about the camps.
    Thank you.
    Chairman Royce. The gentleman is recognized.
    Mr. Smith. Thank you very much. I thank my good friend for 
yielding.
    You know, you just mentioned, Doctor, Valerie Hudson. I 
actually had Valerie Hudson testify at a hearing that I held on 
the consequences of gendercide in China. She wrote the 
unbelievably ground-breaking book, ``Bare Branches,'' about 
what sex election abortion has done to China, and the missing 
daughters who have been at 5 months or so gestation, as babies, 
forcibly aborted.
    They are only allowed one, so they choose the male, and the 
impact it is having on an increasingly male and older society, 
and China is in a terrible, terrible demographic meltdown that 
could lead to violence. She even said--Valerie Hudson--that it 
could lead to war because of the missing females in that 
country, again underscoring the need for--and the absolutely 
indispensable role that we all know--we take it for granted 
here--that women play in society. But when they are missing and 
they are dead, then that is not the case. But Valerie Hudson is 
an extraordinary academic and writer.
    Let me just ask--I had asked those earlier questions to you 
about the tiny terrorists that you talked about, the child 
soldiers maybe is another way of putting it, how any of that 
compares with the LRA or Charles Taylor. The camps I don't have 
a sense--I don't think any of us perhaps do--what those camps 
really look like. And let me--and you did compare it to the 
Hitler Youth, which certainly is a staggering comparison.
    Mr. Watts, again, if you could get to the issue of the 
women who might step up and help another woman who is--Muslim 
helps a non-Muslim, what happens to her.
    You also talked about the brainwashing. If any of you could 
speak to what is being done for any child or person who needs 
to go through the deprogramming of the hate. In Africa, 
obviously, there are a number of programs for child soldiers 
that do work, not perfectly, but I have met many of them. We 
have had them here testifying.
    Lastly, before I run out of time again, for the second 
time, if I could just ask about, Dr. Ahram, on the Medievals. 
And if you could provide that for the record, we all want to 
read that, and I thank you for your answer, if you could 
elaborate on that, please.
    Ms. Kuehnast. I will just basically say, in terms of this 
relevant information with the LRA and Uganda with Joseph Kony, 
absolutely, I think, you know, the Lost Boys, we see that. But 
I think what is different, if you will, is Joseph Kony, as a 
renegade armed actor in a war, certainly did not have the 
advantage of YouTube.
    And I do think that that is, as our colleagues here have so 
well put, the PR value of making these video clips of little 
boys carrying guns that are bigger than them, any of these 
visualizations have enormous emotional impact, as Sasha 
mentioned earlier.
    I would add South Sudan to this mix, because we know for a 
fact that the number of children being kidnapped, both boys and 
girls, to be armed actors in this civil conflict is rising, and 
the use of sexual violence there is really tipping the charts. 
So ISIS is not the only actor here who has figured out that 
sexual violence is cheaper than a bullet. And it is so much 
more effective; it is terror at its deepest level. And it does 
destroy people, and it destroys the ties that bond people 
together.
    And when you have to witness a child being raped, a mother 
being raped, as many of these things are public spectacles, 
then you are on the edge of what we call in the genocide 
prevention work, on the edge of an atrocity, a human atrocity. 
This is one of the key indicators of genocidal behavior is gang 
rape.
    Mr. Smith. The camps--because I am running out of time 
again--the camps, what do they look like, and where are they?
    Ms. Kuehnast. What we see on the videos and photos and 
YouTubes, they are basic. They are very basic, but they give 
them an identity, a uniform, a gun, and they practice, as I 
mentioned, cutting off first doll heads, so that they are 
prepared to do the next.
    And as Dr. Ahram said, sexual violence among--against boys 
is very high. Very, very high, because it creates shame and it 
creates belonging in an ironic manner.
    Chairman Royce. Well, we had better go to Lois Frankel now. 
But perhaps when we get back at the end of some of the 
questioning, maybe by Judge Poe, we can get to that.
    Thank you.
    Ms. Frankel. Thank you, Mr. Chair. And thank you for this 
hearing, and thank you to the panel. I will--I am like 
everybody else sitting here. This is just an appalling 
situation, and to me you have just been describing the lowest 
form of humanity. And I am not sure what we can do. I am going 
to--I want to follow up on Mr. Trott's questions, but I know 
one thing. We cannot turn our back on this.
    Mr. Trott asked you for some examples--or some concrete 
suggestions, and I think, Ms. Havlicek, you have had--I know 
you gave us your ideas. I would like to hear the ideas from 
some of you. And if you could just also take into account--you 
know, you said there were 4 million women living under ISIS 
control or contested areas.
    So, obviously, there are a lot of these areas, they are war 
zones, so I am not sure--how do you infiltrate these areas? 
And, you know, what are the--I think you talked about the 
radio, the internet. I don't know. Are we talking about NGOs, 
civil society? Could you give us some really concrete examples?
    Mr. Watts. I think there is a very specific example, and it 
is one of the things I was going to say in answer to Mr. 
Trott's question, which is we need to remember the lessons of 
previously when America was directly engaged against al-Qaeda 
in Iraq, as it was called then, which was the awakening which 
did so much to end their reign of terror then was based on 
personal relationships, on a particular Sunni tribal sheikh who 
walked into the American base at the end of his road and said, 
``I know where these guys are hiding. I know where they keep 
their guns.'' And from that point on, in a matter of days, he 
was able to--they were able to transform the military 
situation.
    And what I am saying is that the network that I came across 
in the Yazidi territory that also exists in parts of Syria, 
there are people on the ground. There is a huge, I think, 
population. Some of the people out there say to me 60 percent 
of the population in ISIS territory are opposed to them. There 
are assassinations that these groups carry out against ISIS 
members of their own volition.
    If we can just expand on the contacts that already exist, 
build up the personal relationships, follow the line of the 
network, then perhaps we can begin to make contact with people 
inside who oppose ISIS's views and are in a position to help 
direct our efforts, you know, whether they have been military 
or humanitarian, better.
    And I think that is my second point in answer to Mr. 
Trott's. He asked for two things, which is that if we are going 
to do something we should do it right, like the air strikes are 
happening, and I get an email every day reporting what has been 
destroyed.
    But on the front line, I was with Kurdish fighters, and we 
saw trucks passing within 100 meters on the highway between 
Mosul and Al-Hasakah and Raqqah. And I said, ``What is going on 
with these trucks?'' And they said, ``We don't have any 
spotters that are authorized to call in strikes on this 
stuff.'' So I think that small steps can be taken that would 
just make the effort more effective.
    Ms. Kuehnast. I mentioned in my comments that refugee camps 
are there. They have information. They know about what is 
going. They have fleed, and they have opportunities now, one, 
to try to heal from what they have seen and experienced, and we 
should be right there, because this will be the next generation 
if we don't engage them.
    We can't leave them to be idle, because the opportunity to 
intersect with idleness and the opportunity for engaging in the 
extremist efforts are provocative because they provide money, 
identity, and opportunity. So refugee camps are key, focusing 
on young people, very young people, under 10.
    We just should take the playbook from ISIS. They are 
focusing on young people. Why aren't we? And in the same light, 
we need to pay attention to what Edward said here. Focus on the 
relationships. They are doing it one person at a time. They 
don't have this massive campaign. They do it one person at a 
time, and they spend a lot of time on just one. Individuals 
count. In the same way, we need to make those networks and 
relationships matter.
    Mr. Ahram. There are, at present, 36 different local and 
international NGOs and U.S. agencies involved specifically on 
gender violence in Lebanon, Syria, Jordan, Turkey, and Iraq. I 
think those would be the agencies that have the most direct 
access to victims and are in a position to try and assist their 
reintegration back into society.
    I think also, though, it is worth cautioning about the 
impact of military intervention. Military interventions are 
going to produce more population displacement, and population 
displacement, people who are displaced--and there are already 
13 million displaced people in Syria and Iraq today. Those are 
the people that are most vulnerable to all kinds of sexual 
trafficking, to sexual exploitation and to rape.
    And so I think that while there is certainly a purpose in 
destroying ISIS, I would caution that there will be a 
humanitarian blowback as well, and there will be humanitarian 
costs to those kinds of activities.
    Chairman Royce. We will go to Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    I want to center in on specifically the issue of women 
being trafficked by ISIS, human trafficking. Do we have any 
estimates about how much money is made by ISIS in the 
trafficking of women and girls? Does anybody know?
    Ms. Kuehnast. I was just going to say this is an absolutely 
important point, to see that this is a huge criminal network. 
It is very entrepreneurial, and it is making a lot of money. 
The numbers----
    Mr. Poe. Does anybody know how much money? Any estimate at 
all?
    Mr. Watts. I don't have an estimate on the exact figure, 
but the trafficking is primarily within--when we are talking 
about sex slaves, for example, the women and girls from the 
Yazidi community, it is within ISIS. So----
    Mr. Poe. Right. How many women are we talking about there 
would be in trafficking?
    Mr. Watts. In terms of the sex, there----
    Mr. Poe. Sex trafficking, yes.
    Mr. Watts. Sex slaves, it is over 3,000, is what we think.
    Mr. Poe. How does ISIS justify sex trafficking?
    Mr. Watts. By its definition of this particular religious 
minority, the Yazidis. Specifically, they are the only group 
that we know for certain have been----
    Mr. Poe. Tell me how they justify it. They do justify it, I 
agree. How do they justify it?
    Mr. Watts. They say they are pagans, and they judge them by 
the treatment of pagans back in the--1,300 years ago.
    Mr. Poe. And a pagan is what?
    Mr. Watts. A pagan is someone who----
    Mr. Poe. In their eyes, under their definition.
    Mr. Watts. Like an animist, basically, someone who worships 
rocks or animals or, you know, sees gods all over the place, 
sees a multitude of gods. The Yazidis, for example, they use 
the sun. They are actually monotheistic, so actually ISIS have 
got their interpretation of the Yazidi religion wrong, but the 
Yazidis view the sun or they use the sun as a particular symbol 
to symbolize God.
    And in ISIS's interpretation, that means that they are 
worshiping something other than Allah, a clear--you know, an 
animist symbol.
    Mr. Poe. Then that would include everybody that doesn't 
agree with their specific religious doctrine. Is that correct 
or not?
    Mr. Watts. That is not correct in the sense that the Koran 
does have certain outlines for the treatment of the people of 
the book, i.e. Christians and Jews. And so there aren't--you 
know, it doesn't apply to everybody.
    Mr. Poe. Well, does it apply to Jews and Christians?
    Mr. Watts. It doesn't, as far as we know, as far as--to the 
best of my knowledge. Though Christians have been abducted, 
they haven't been subjected to this kind of sexual enslavement 
as the Yazidis have. That is the only group, to the best of my 
knowledge, that has been treated in that way.
    Mr. Poe. But none of you have any numbers, any kind of 
numbers that we are talking about?
    Mr. Watts. Well, we are talking about over 3,000, as I say, 
women and girls. And the price for a girl, if she is a virgin, 
can be up to $2,000, I heard in testimony. But after she has 
been subjected to multiple sexual assaults, the price can go 
down to as low as $100 to $50.
    And what is happening is that girls are being--one girl 
literally described it to me. She was rented out. So she would 
be passed around for 50 bucks here, 100 bucks there, and so--
but, again, that money is all being transmitted internally 
within ISIS. To the best of our knowledge, they are not 
trafficking outside their boundaries.
    Mr. Poe. I understand.
    Ms. Havlicek, let me ask you something about countering 
violent extremism. We have a program, supposedly, through the 
State Department to counter violent extremism. This is just my 
opinion. We are--it seems we are losing that battle with 
countering violent extremism and the results.
    Can you weigh in on that issue, U.S. countering violent 
extremism, as it deals with sex trafficking of women? Would you 
like to weigh in on that?
    Ms. Havlicek. I am not in a position to speak about the sex 
trafficking piece of that question. But if I might just respond 
on the U.S. CVE structure.
    Mr. Poe. Sure.
    Ms. Havlicek. I do think that we have tended to view this 
battle in a slightly narrow way. The idea that you are going to 
beat this enormous propaganda recruitment machinery, this 
movement through a sort of hashtag war, is just too narrow a 
perspective.
    As I mentioned earlier, I don't think that counter 
messaging can be done--counter narrative work can credibly be 
done if led by government. I think governments have a job to do 
on their own strategic communications. No question. But during 
the Cold War, there was a serious investment in the battle of 
ideas, an investment that understood the need to build civil 
society networks in all sorts of different ways through 
educational outreach, through NGOs, and in so many different 
ways.
    And those were the people, of course, that were at the 
front line of the transition processes when, in fact, there was 
an opportunity to see that happen. That kind of investment I 
think has not happened in this particular case, and I would 
hope we could. I think one of the problems is that we are also 
always seeing governments running after the fact.
    We are responsive and certainly not proactive. I would make 
a plea for us to look at the displaced populations. The refugee 
situation, as you well know, it is the single largest 
humanitarian crisis of our time. We need, for both moral 
imperative reasons, and from a practical perspective, to be 
getting to grips with that population: 5 million, 6 million 
people, 4 million outside of the country.
    That is going to be the pool from which extremists recruit. 
That is going to be our biggest challenge and threat over the 
next generation. We are seeing absolutely nothing being done in 
the prevention space on those communities and populations right 
now. That would be a way for us to get a little bit ahead of 
the curve. Also, we have said the same thing about women. Here 
is an emerging threat, a trend, that hasn't really been--that 
hasn't really gone up the food chain in terms of priorities for 
policymakers.
    And I must say, though, that the State Department has been 
proactive in looking at ways in which to partner with civil 
society organizations through the ECA's convening power, 
bringing women from around the world together to start to think 
about how they can push back on this phenomenon. But ultimately 
we need more proaction.
    Mr. Poe. Thank you very much.
    Chairman?
    Chairman Royce. Mr. Smith, did you have a follow-up 
question?
    Mr. Smith. Again, Mr. Watts, I think you wanted to answer 
the question about a Muslim woman who might defend a non-Muslim 
woman. Do they use coercive peer pressure against her? Does she 
become, you know, just like the non-Muslim, raped and abused 
and exploited?
    Mr. Watts. Well, very simply, she would be subject to the 
most severe physical punishments. I mean, women receive--Muslim 
women can receive severe beatings for wearing perfume, for 
speaking too loudly in public. I met one housewife who, when 
she had been crossing the street, her big toe slipped out 
underneath her gown, and she received 50 lashes, she told us, 
on that big toe for it being revealed. So you can imagine.
    I mean, what we did come across was stories where kind of 
privately and in secret Muslim women from inside ISIS areas had 
assisted with rescues of non-Muslim women of the Yazidis, 
either as part of the network or on an individual basis taking 
extreme risks. But the punishments can be more severe.
    Mr. Smith. And forced conversions, is that a serious 
problem with the Christians and others?
    Mr. Watts. Yeah. I mean, all the Yazidis, as I think has 
been mentioned, you know, effectively that was one of the only 
ways that you could survive in these first few days when a lot 
of the Yazidis were being captured. There were the mass graves 
that the chairman mentioned. Men were offered the chance to 
convert and effectively spare their lives.
    Chairman Royce. We just want to thank all of our witnesses 
today. Also, thank you for the time you have put into your 
prepared testimony.
    By the way, that is online. If people want to go to 
foreignaffairs.house.gov, we will have the Institute for 
Strategic Dialogue, Sasha, we will have that information and, 
as a matter of fact, all of your testimony up, if anybody wants 
to go through your analysis.
    And also, I just wanted to say we have several witnesses 
here who came a continent away to testify before the committee 
today. Thank you so much. And you have given the committee a 
lot to think about, and your testimony is going to be very, 
very valuable to us going forward. So thank you all.
    We stand adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      <F-dash>\<lrg-box><Register>\ <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                <Register><pound><variable><star><box>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                         <lrg-box><Register>\\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
